  Department of Health and Human Services
                     OFFICE OF
                INSPECTOR GENERAL




IDAHO DID NOT BILL MANUFACTURERS
  FOR REBATES FOR SOME MEDICAID
  PHYSICIAN-ADMINISTERED DRUGS




    Inquiries about this report may be addressed to the Office of Public Affairs at
                             Public.Affairs@oig.hhs.gov.




                                                     Gloria L. Jarmon
                                                  Deputy Inspector General

                                                          April 2014
                                                        A-09-12-02079
                        Office of Inspector General
                                         https://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health and Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs and/or its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments of HHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on significant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all 50
States and the District of Columbia, OI utilizes its resources by actively coordinating with the Department
of Justice and other Federal, State, and local law enforcement authorities. The investigative efforts of OI
often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG’s internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program guidance, publishes fraud alerts, and provides
other guidance to the health care industry concerning the anti-kickback statute and other OIG enforcement
authorities.
                         Notices


    THIS REPORT IS AVAILABLE TO THE PUBLIC
              at https://oig.hhs.gov

 Section 8L of the Inspector General Act, 5 U.S.C. App., requires
 that OIG post its publicly available reports on the OIG Web site.

OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

 The designation of financial or management practices as
 questionable, a recommendation for the disallowance of costs
 incurred or claimed, and any other conclusions and
 recommendations in this report represent the findings and
 opinions of OAS. Authorized officials of the HHS operating
 divisions will make final determination on these matters.
                                       EXECUTIVE SUMMARY

 During 2010, Idaho did not bill manufacturers for rebates associated with $2.6 million
 in paid claims for physician-administered drugs.

WHY WE DID THIS REVIEW

For a covered outpatient drug to be eligible for Federal reimbursement under the Medicaid
program’s drug rebate requirements, manufacturers must pay rebates to the States. States bill the
manufacturers for the rebates to reduce the cost of the drugs to the program. However, a recent
Office of Inspector General review found that States did not always bill and collect all rebates
due for drugs administered by physicians.

Our objective was to determine whether Idaho’s Department of Health and Welfare (State
agency) complied with Federal Medicaid requirements for billing manufacturers for rebates for
physician-administered drugs.

BACKGROUND

The Medicaid drug rebate program became effective in 1991 (the Social Security Act, § 1927).
For a covered outpatient drug to be eligible for Federal reimbursement under the program, the
manufacturer must enter into a rebate agreement with the Centers for Medicare & Medicaid
Services (CMS) and pay quarterly rebates to the States.

The Deficit Reduction Act of 2005 amended section 1927 of the Social Security Act to
specifically address the collection of rebates on physician-administered drugs. To collect these
rebates, States submit to the manufacturers the drug utilization data containing National Drug
Codes (NDCs) for all single-source and the top 20 multiple-source physician-administered drugs.
Federal reimbursement for covered outpatient drugs administered by a physician is not available
to States that do not comply with Federal requirements for capturing NDCs to bill and collect
rebates.

In Idaho, the State agency is responsible for billing and collecting Medicaid drug rebates for
physician-administered drugs. The State agency contracts with a rebate contractor to bill for
rebates. The rebate contractor receives from the data warehouse contractor a file containing
claim lines (claim extract) that the rebate contractor uses to bill manufacturers.

WHAT WE FOUND

During calendar year (CY) 2010, the State agency did not always comply with Federal Medicaid
requirements for billing manufacturers for rebates for physician-administered drugs. Of the
$7,288,288 in paid claims reviewed, the State agency properly billed for rebates associated with
$4,651,484. However, the State agency did not bill for rebates associated with $2,636,804
because the rebate contractor did not receive the related claim lines to bill manufacturers for
rebates:



Idaho’s Billing of Manufacturers for Rebates for Physician-Administered Drugs (A-09-12-02079)       i
    •   The rebate contractor did not receive claim lines totaling $2,140,760 ($1,483,130 Federal
        share) because the data warehouse contractor incorrectly excluded these claim lines from
        the claim extract provided to the rebate contractor. The data warehouse contractor
        excluded the claim lines on the basis of inaccurate State agency instructions, which were
        implemented when the data warehouse became operational on July 15, 2010. As a result
        of our audit, the State agency removed the instructions beginning with the March 31,
        2013, rebate file.

    •   The rebate contractor did not receive claim lines totaling $496,044 ($342,555 Federal
        share) because NDCs were not present or valid NDCs were not captured. The State
        agency did not ensure that its Medicaid Management Information System (MMIS)
        captured valid NDCs for all claim lines for physician-administered drugs.

Because the State agency did not bill manufacturers for rebates associated with $2,636,804
($1,825,685 Federal share), we are setting aside this amount for CMS resolution.

WHAT WE RECOMMEND

We recommend that the State agency:

    •   work with CMS to determine the amount that should be billed to manufacturers for
        rebates associated with the $2,636,804 ($1,825,685 Federal share) in claim lines for
        physician-administered drugs,

    •   bill manufacturers for rebates associated with the claim lines for any physician-
        administered drugs that were incorrectly excluded from the rebate process after CY 2010,

    •   ensure that the MMIS captures valid NDCs for all claim lines for physician-administered
        drugs, and

    •   ensure that all physician-administered drugs eligible for rebates are processed for rebates.

STATE AGENCY COMMENTS

The State agency concurred with our findings and provided information on actions that it had
taken or planned to take to implement our recommendations.




Idaho’s Billing of Manufacturers for Rebates for Physician-Administered Drugs (A-09-12-02079)       ii
                                                     TABLE OF CONTENTS

INTRODUCTION .......................................................................................................................1

           Why We Did This Review ...............................................................................................1

           Objective ..........................................................................................................................1

           Background ......................................................................................................................1
                 Medicaid Drug Rebate Program ..........................................................................1
                 Physician-Administered Drugs ............................................................................2
                 The State Agency’s Medicaid Drug Rebate Program ..........................................2

           How We Conducted This Review....................................................................................3

FINDINGS ...................................................................................................................................4

           Federal and State Requirements.......................................................................................4

           The State Agency Did Not Bill for Rebates on Physician-Administered
            Drugs Because Claim Lines Were Incorrectly Excluded From the
            Rebate Process ..............................................................................................................5

           The State Agency Did Not Bill Manufacturers for Rebates on Other
            Physician-Administered Drugs Because National Drug Codes
            Were Not Present or Valid Codes Were Not Captured.................................................5

RECOMMENDATIONS .............................................................................................................6

STATE AGENCY COMMENTS ................................................................................................6

OTHER MATTERS.....................................................................................................................6

           The State Agency Paid Claims That Had National Drug Codes
            That Were Not Listed in the CMS Medicaid Drug File ...............................................6

           The State Agency Reported Negative Balances for Rebates ...........................................6

APPENDIXES

           A: Related Office of Inspector General Reports .............................................................8

           B: Audit Scope and Methodology...................................................................................9

           C: Audit Methodology Flowchart ...................................................................................11




Idaho’s Billing of Manufacturers for Rebates for Physician-Administered Drugs (A-09-12-02079)                                                      iii
        D: Federal and State Requirements Related to
              Physician-Administered Drugs ............................................................................12

        E: State Agency Comments ............................................................................................14




Idaho’s Billing of Manufacturers for Rebates for Physician-Administered Drugs (A-09-12-02079)                                     iv
                                                INTRODUCTION

WHY WE DID THIS REVIEW

For a covered outpatient drug to be eligible for Federal reimbursement under the Medicaid
program’s drug rebate requirements, manufacturers must pay rebates to the States. States bill the
manufacturers for the rebates to reduce the cost of the drugs to the program. However, a recent
Office of Inspector General review found that States did not always bill and collect all rebates
due for drugs administered by physicians. 1 (Appendix A lists previous reviews of the Medicaid
drug rebate program.)

OBJECTIVE

Our objective was to determine whether Idaho’s Department of Health and Welfare (State
agency) complied with Federal Medicaid requirements for billing manufacturers for rebates for
physician-administered drugs.

BACKGROUND

Medicaid Drug Rebate Program

The Medicaid drug rebate program became effective in 1991 (the Social Security Act (the Act),
§ 1927). For a covered outpatient drug to be eligible for Federal reimbursement under the
program, the drug’s manufacturer must enter into a rebate agreement with the Centers for
Medicare & Medicaid Services (CMS) and pay quarterly rebates to the States. CMS, the States,
and drug manufacturers each have specific functions under the program.

Manufacturers are required to submit a list to CMS of all covered outpatient drugs and to report
each drug’s average manufacturer price and, where applicable, best price. 2 On the basis of this
information, CMS calculates a unit rebate amount for each drug and provides the information to
the States each quarter. Covered outpatient drugs reported by participating drug manufacturers
are listed in the CMS Medicaid Drug File, which identifies drugs with such fields as National
Drug Code (NDC), unit type, units per package size, and product name.

Section 1903(i)(10) of the Act prohibits Federal reimbursement for States that do not capture the
information necessary for billing manufacturers for rebates as described in section 1927 of the
Act. To bill for rebates, States must capture drug utilization data that identify, by NDC, the
number of units of each drug for which the States reimbursed Medicaid providers and must
report the information to the manufacturers (the Act, § 1927(b)(2)(A)). The number of units is
multiplied by the unit rebate amount to determine the actual rebate amount due from each
manufacturer.


1
    States’ Collection of Medicaid Rebates for Physician-Administered Drugs (OEI-03-09-00410), issued June 2011.
2
    Section 1927(b) of the Act and section II of the Medicaid rebate agreement.



Idaho’s Billing of Manufacturers for Rebates for Physician-Administered Drugs (A-09-12-02079)                      1
States report drug rebate accounts receivable data to CMS on the Medicaid Drug Rebate
Schedule (CMS 64.9R). This schedule is part of the Quarterly Medicaid Statement of
Expenditures for the Medical Assistance Program report, which contains a summary of actual
Medicaid expenditures for each quarter and is used by CMS to reimburse States for the Federal
share of Medicaid expenditures. The Federal share is determined by the Federal medical
assistance percentage, which varies depending on the State’s per capita income.

Physician-Administered Drugs

Drugs administered by a physician are typically billed to the Medicaid program on a claim form
using Healthcare Common Procedure Coding System (HCPCS) codes. For purposes of the
Medicaid drug rebate program, single-source drugs are those covered outpatient drugs produced
or distributed under an original new drug application approved by the Food and Drug
Administration (FDA). 3 Multiple-source drugs are defined, in part, as those covered outpatient
drugs that have at least one other drug rated as therapeutically equivalent by FDA. 4

Before the Deficit Reduction Act of 2005, many States did not collect rebates on physician-
administered drugs if the drug claims did not contain NDCs. NDCs allow States to identify the
drug and its manufacturer to collect drug rebates. To comply with the data collection
requirements of the Deficit Reduction Act, many States now require that claims for physician-
administered drugs include NDCs.

The State Agency’s Medicaid Drug Rebate Program

The State agency is responsible for paying claims and collecting Medicaid drug rebates for
physician-administered drugs. The State agency requires providers to submit NDCs on claims
for all physician-administered drugs.

The State agency contracts with three contractors to administer the drug rebate process: a paid
claims contractor, a data warehouse contractor, and a rebate contractor. The following describes
the three contractors’ roles in the rebate process:

      •    The paid claims contractor 5 is responsible for adjudicating and paying claims for
           physician-administered drugs using the State agency’s Medicaid Management
           Information System (MMIS). During the adjudication process, if a provider submits
           NDCs on its claims, MMIS edits generally ensure that the claims include valid NDCs,
           valid HCPCS codes, and valid HCPCS-NDC combinations. The paid claims contractor

3
    Section 1927(k)(7) of the Act. Single-source drugs are commonly referred to as “brand-name” drugs.
4
  Section 1927(k)(7) of the Act. According to the definition of “therapeutic equivalence” in the FDA glossary of
terms, a therapeutic equivalent drug product can be substituted with another product to achieve the same clinical
effect as the prescribed drug. http://www.fda.gov/drugs/informationondrugs/ucm079436.htm. Accessed on
December 16, 2013.
5
 The paid claims contractor was HP Enterprise Services from January through May 2010 and Molina Medicaid
Solutions from June through December 2010.



Idaho’s Billing of Manufacturers for Rebates for Physician-Administered Drugs (A-09-12-02079)                       2
           validates the HCPCS-NDC combinations using a crosswalk maintained by the rebate
           contractor. (A crosswalk identifies the NDCs associated with an HCPCS code.) The
           paid claims contractor pays the claims and forwards them to the data warehouse
           contractor.

      •    The data warehouse contractor, 6 according to State agency instructions, forwards to the
           rebate contractor a file containing claim lines 7 (claim extract).

      •    The rebate contractor, 8 using the claim extract, identifies the rebatable units, calculates
           the rebates due on the basis of CMS’s unit rebate amount, and bills the manufacturers by
           NDC for rebates on all single-source and all multiple-source drugs. 9 The manufacturers
           pay the rebates directly to the rebate contractor, which maintains accounts receivable
           information and works with manufacturers to resolve any unpaid rebates. The rebate
           contractor forwards the rebate payment information to the State agency.

HOW WE CONDUCTED THIS REVIEW

Our audit covered $7,656,152 of State agency fee-for-service claims 10 for physician-
administered drugs paid in CY 2010. 11 We excluded from our review $367,864 of certain fee-
for-service claims, such as claims that are exempt from Medicaid drug rebates (i.e., provider
claims under the 340B Drug Pricing Program). 12 Therefore, we reviewed $7,288,288 of fee-for-
service claims for physician-administered drugs.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions

6
 During calendar year (CY) 2010, the data warehouse contractor was part of the health care unit of Thomson
Reuters Corporation. On June 6, 2012, a private equity firm purchased the unit and rebranded it as Truven Health
Analytics.
7
    A claim line represents one physician-administered drug service. Claims may include more than one claim line.
8
 The rebate contractor was HP Enterprise Services in January 2010 and Magellan Medicaid Administration from
February through December 2010. The rebate contractor also administers the State agency’s pharmacy drug rebate
processes; however, this review does not cover those processes.
9
 Although the Medicaid drug rebate law specifically addresses rebates for only the top 20 multiple-source drugs,
State agency officials told us that the rebate contractor billed for rebates on all multiple-source drugs.
10
 Our scope was limited to Medicaid fee-for-service drug claims. We did not include the drug utilization of
managed-care organizations in this review.
11
  Molina Medicaid Solutions provided us with the paid claims file we reviewed, which included claims from both
paid claims contractors.
12
  Drug manufacturers are not required to pay rebates under the Medicaid drug rebate program for covered
outpatient drugs that are subject to discounted pricing under the 340B Drug Pricing Program (42 U.S.C.
§ 256b(a)(5)).



Idaho’s Billing of Manufacturers for Rebates for Physician-Administered Drugs (A-09-12-02079)                       3
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objectives.

Appendix B contains the details of our audit scope and methodology, and Appendix C shows our
audit methodology in flowchart form.

                                                    FINDINGS

During CY 2010, the State agency did not always comply with Federal Medicaid requirements
for billing manufacturers for rebates for physician-administered drugs. Of the $7,288,288 in paid
claims reviewed, the State agency properly billed for rebates associated with $4,651,484. 13
However, the State agency did not bill for rebates associated with $2,636,804 because the rebate
contractor did not receive the related claim lines to bill manufacturers for rebates:

     •   The rebate contractor did not receive claim lines totaling $2,140,760 ($1,483,130 Federal
         share) because the data warehouse contractor incorrectly excluded these claim lines from
         the claim extract provided to the rebate contractor. The data warehouse contractor
         excluded the claim lines on the basis of inaccurate State agency instructions, which were
         implemented when the data warehouse became operational on July 15, 2010. As a result
         of our audit, the State agency removed the instructions beginning with the
         March 31, 2013, rebate file.

     •   The rebate contractor did not receive claim lines totaling $496,044 ($342,555 Federal
         share) because NDCs were not present or valid NDCs were not captured. The State
         agency did not ensure that its MMIS captured valid NDCs for all claim lines for
         physician-administered drugs.

Because the State agency did not bill manufacturers for rebates associated with $2,636,804
($1,825,685 Federal share), we are setting aside this amount for CMS resolution.

FEDERAL AND STATE REQUIREMENTS

The Deficit Reduction Act amended section 1927 of the Act to specifically address the collection
of rebates on physician-administered drugs. States must capture NDCs for single-source and
top-20 multiple-source drugs (the Act, § 1927(a)(7)(C)). Federal regulations prohibit Federal
reimbursement for physician-administered drugs unless the States submit to manufacturers drug
utilization data containing the NDCs (42 CFR § 447.520).

Idaho’s Medicaid Information Release (IR) MA04-06 requires the collection of NDC
information on claims for medications from professional providers and states that collection will
result in significant cost savings to the State’s Medicaid program. According to IR MA04-06,
the collection of NDC information allows the State agency to bill and collect rebates; claims for
physician-administered drugs with incomplete NDC information will be denied.
13
  We traced the $4,651,484 in claim lines to a rebate claim file that the rebate contractor used to bill manufacturers
for rebates.



Idaho’s Billing of Manufacturers for Rebates for Physician-Administered Drugs (A-09-12-02079)                            4
Appendix D contains Federal and State requirements related to physician-administered drugs.

THE STATE AGENCY DID NOT BILL FOR REBATES ON PHYSICIAN-
ADMINISTERED DRUGS BECAUSE CLAIM LINES WERE INCORRECTLY
EXCLUDED FROM THE REBATE PROCESS

The rebate contractor did not receive 58,598 claim lines totaling $2,140,760 ($1,483,130 Federal
share) because the data warehouse contractor incorrectly excluded these claim lines from the
claim extract provided to the rebate contractor. As a result, the rebate contractor did not bill
manufacturers for rebates on the State agency’s behalf.

The data warehouse contractor excluded the claim lines on the basis of inaccurate State agency
instructions, which were implemented when the data warehouse became operational on
July 15, 2010. As a result of our audit, the State agency removed the instructions beginning with
the March 31, 2013, rebate file. Therefore, additional claim lines for physician-administered
drugs could have been incorrectly excluded from the claim extract provided to the rebate
contractor after CY 2010. The State agency and its rebate contractor plan to retroactively bill
manufacturers for rebates for physician-administered drugs that were not previously rebated.

We verified that the 58,598 claim lines were not billed for rebates even though the claim lines
had NDCs that appeared in the CMS Medicaid Drug File. Because the State agency did not bill
manufacturers for rebates associated with $2,140,760 ($1,483,130 Federal share), we are setting
aside this amount for CMS resolution.

THE STATE AGENCY DID NOT BILL MANUFACTURERS FOR REBATES ON
OTHER PHYSICIAN-ADMINISTERED DRUGS BECAUSE NATIONAL DRUG CODES
WERE NOT PRESENT OR VALID CODES WERE NOT CAPTURED

The rebate contractor did not receive 4,755 claim lines totaling $496,044 ($342,555 Federal
share) because NDCs were not present or valid NDCs were not captured. As a result, the rebate
contractor did not bill manufacturers for rebates on the State agency’s behalf.

    •   For 3,491 claim lines totaling $332,983 ($229,782 Federal share), we determined that
        NDCs were not present in the NDC fields. However, the State agency was able to
        retrieve the NDCs for most of these claim lines from a different source.

    •   For 1,264 claim lines totaling $163,061 ($112,773 Federal share), valid NDCs were not
        captured because the crosswalk that the State agency used in CY 2010 did not list all
        valid HCPCS-NDC combinations. The crosswalk was not updated in a timely manner
        and therefore could not ensure valid HCPCS-NDC combinations.

The State agency did not ensure that its MMIS captured valid NDCs for all claim lines for
physician-administered drugs.




Idaho’s Billing of Manufacturers for Rebates for Physician-Administered Drugs (A-09-12-02079)      5
We verified that the 4,755 claim lines were not billed for rebates. Because the State agency did
not bill manufacturers for rebates associated with $496,044 ($342,555 Federal share), we are
setting aside this amount for CMS resolution.

                                        RECOMMENDATIONS

We recommend that the State agency:

    •   work with CMS to determine the amount that should be billed to manufacturers for
        rebates associated with the $2,636,804 ($1,825,685 Federal share) in claim lines for
        physician-administered drugs,

    •   bill manufacturers for rebates associated with the claim lines for any physician-
        administered drugs that were incorrectly excluded from the rebate process after CY 2010,

    •   ensure that the MMIS captures valid NDCs for all claim lines for physician-administered
        drugs, and

    •   ensure that all physician-administered drugs eligible for rebates are processed for rebates.

                                   STATE AGENCY COMMENTS

The State agency concurred with our findings and provided information on actions that it had
taken or planned to take to implement our recommendations. The State agency’s comments are
included in their entirety as Appendix E.

                                           OTHER MATTERS

THE STATE AGENCY PAID CLAIMS THAT HAD NATIONAL DRUG CODES
THAT WERE NOT LISTED IN THE CMS MEDICAID DRUG FILE

In CY 2010, the State agency claimed Federal reimbursement of $110,279 for 2,981 claim lines
that had NDCs that were not listed in the CMS Medicaid Drug File, which lists covered
outpatient drugs that are eligible for Federal reimbursement. It was beyond the scope of our
review to determine whether these claim lines should have been paid and whether they were
eligible for Federal reimbursement.

THE STATE AGENCY REPORTED NEGATIVE BALANCES FOR REBATES

The State agency reported negative beginning and ending accounts receivable balances for
rebates on its CMS 64.9R. For example, the December 31, 2010, accounts receivable balance for
rebates (for both physician-administered drugs and drugs dispensed by pharmacies) was
approximately negative $253 million. The accounts receivable rebate balance indicates the
amount of outstanding rebates due from drug manufacturers and generally should be a positive
amount.




Idaho’s Billing of Manufacturers for Rebates for Physician-Administered Drugs (A-09-12-02079)      6
Because the accounts receivable balances included pharmacy rebate amounts, which were
beyond the scope of our review, we did not reconcile the balances and determine the extent to
which Federal reimbursement was affected.




Idaho’s Billing of Manufacturers for Rebates for Physician-Administered Drugs (A-09-12-02079)   7
       APPENDIX A: RELATED OFFICE OF INSPECTOR GENERAL REPORTS

                    Report Title                               Report Number                    Date Issued
Maryland Claimed Unallowable Federal
Reimbursement for Some Medicaid Physician-                     A-03-12-00200               November 2013
Administered Drugs
Nationwide Rollup Report for Medicaid Drug
                                                               A-06-10-00011                    August 2011
Rebate Collections

States’ Collection of Medicaid Rebates for
                                                              OEI-03-09-00410                    June 2011
Physician-Administered Drugs

Follow-Up Audit of the Medicaid Drug Rebate
                                                               A-09-07-00064                    April 2008
Program in Idaho

Medicaid Rebates for Physician-Administered
                                                              OEI-03-02-00660                   April 2004
Drugs




Idaho’s Billing of Manufacturers for Rebates for Physician-Administered Drugs (A-09-12-02079)                 8
                    APPENDIX B: AUDIT SCOPE AND METHODOLOGY

SCOPE

Our audit covered $7,656,152 of State agency fee-for-service claims for physician-administered
drugs paid in CY 2010. We excluded from our review $367,864 of certain fee-for-service
claims, such as claims that are exempt from Medicaid drug rebates (i.e., provider claims under
the 340B Drug Pricing Program). Therefore, we reviewed $7,288,288 of fee-for-service claims
for physician-administered drugs.

Our audit objective did not require an understanding or assessment of the complete internal
structure of the State agency. We limited our internal control review to obtaining an
understanding of the State agency’s processes for and controls over billing for Medicaid rebates
for physician-administered drugs.

We conducted our audit from August 2012 to August 2013 and performed fieldwork at the State
agency office in Boise, Idaho.

METHODOLOGY

To accomplish our objective, we:

    •   reviewed Federal laws, regulations, and guidance pertaining to the Medicaid drug rebate
        program and physician-administered drugs;

    •   interviewed CMS officials about the Federal laws, regulations, and guidance governing
        physician-administered drugs under the Medicaid drug rebate program;

    •   reviewed State agency regulations and guidance to providers, including billing
        instructions for physician-administered drugs;

    •   reviewed State agency policies and procedures for processing rebates for physician-
        administered drugs;

    •   interviewed State agency and contractor personnel to gain an understanding of the
        administration of and controls over the Medicaid billing and rebate process for physician-
        administered drugs;

    •   obtained from the State agency the HCPCS-NDC crosswalk that its paid claims
        contractor used to validate the HCPCS-NDC combinations in CY 2010;

    •   obtained from the State agency the claims paid in CY 2010 for physician-administered
        drugs;




Idaho’s Billing of Manufacturers for Rebates for Physician-Administered Drugs (A-09-12-02079)      9
     •   obtained from the State agency the rebate claim file that the rebate contractor used to bill
         manufacturers for rebates associated with claims paid in CY 2010 for physician-
         administered drugs; 14

     •   identified the paid claim details for 63,353 claim lines that the State agency had not billed
         for rebates by:

             o excluding certain fee-for-service claim lines not eligible for rebates,

             o identifying claim lines that were eligible for rebates by determining whether the
               NDCs in the drug utilization data were in the CMS Medicaid Drug File, and

             o verifying whether the claim lines eligible for rebates were billed for rebates; and

     •   discussed the results of our review with the State agency.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objectives.




14
 The rebate contractor did not bill manufacturers for these rebates until CY 2012. Adjustments and reversals after
CY 2010 were taken into account by the rebate contractor when billing manufacturers.



Idaho’s Billing of Manufacturers for Rebates for Physician-Administered Drugs (A-09-12-02079)                        10
                   APPENDIX C: AUDIT METHODOLOGY FLOWCHART
                                                       15




15
  We verified whether the claim lines with no NDCs in the NDC field were in the rebate claim file. However,
without NDCs, we were not able to analyze these claim lines against the CMS Medicaid Drug File.



Idaho’s Billing of Manufacturers for Rebates for Physician-Administered Drugs (A-09-12-02079)                 11
        APPENDIX D: FEDERAL AND STATE REQUIREMENTS RELATED TO
                     PHYSICIAN-ADMINISTERED DRUGS

FEDERAL LAWS

Under the Medicaid program, States may provide coverage for outpatient drugs as an optional
service (the Act, § 1905(a)(12)). Section 1903(a) of the Act provides for Federal financial
participation (Federal share) in State expenditures for these drugs. The Medicaid drug rebate
program, created by the Omnibus Budget Reconciliation Act of 1990 that added section 1927 to
the Act, became effective on January 1, 1991. Manufacturers must enter into a rebate agreement
with the Secretary of Health and Human Services and pay rebates for States to receive Federal
funding for the manufacturer’s covered outpatient drugs dispensed to Medicaid patients (the Act,
§ 1927(a)). Responsibility for the drug rebate program is shared among the drug manufacturers,
CMS, and the States.

Section 6002 of the Deficit Reduction Act added section 1927(a)(7) to the Act to require that
States capture information necessary to secure rebates from manufacturers for certain covered
outpatient drugs administered by a physician. In addition, section 6002 of the Deficit Reduction
Act amended section 1903(i)(10) of the Act to prohibit a Medicaid Federal share for covered
outpatient drugs administered by a physician unless the States submit the utilization and coding
data described in section 1927(a)(7) of the Act.

Section 1927(a)(7) of the Act requires that States collect utilization and coding data necessary to
secure rebates for all single-source physician-administered drugs effective January 1, 2006, and
for the top 20 multiple-source drugs effective January 1, 2008. Section 1927(a)(7)(C) of the Act
stated that, effective January 1, 2007, the utilization data must be submitted using the NDC.

FEDERAL REGULATIONS

Federal regulations set conditions for States to obtain a Federal share for covered outpatient
drugs administered by a physician and specifically state that no Federal share is available for
physician-administered drugs for which a State has not required the submission of claims using
codes that identify the drugs sufficiently for the State to bill a manufacturer for rebates (42 CFR
§ 447.520).

Federal regulations in effect during most of the audit period defined a brand-name drug as a
single-source or innovator multiple-source drug and, in a relevant part, a multiple-source drug as
a covered outpatient drug for which there is at least one other drug product that is rated as
therapeutically equivalent (42 CFR § 447.502). 16




16
  On November 15, 2010, CMS amended 42 CFR § 447.502 to remove the definition of multiple-source drug
(75 Fed. Reg. 69591, 69592).



Idaho’s Billing of Manufacturers for Rebates for Physician-Administered Drugs (A-09-12-02079)           12
STATE REGULATIONS AND GUIDANCE

Idaho’s Medicaid IR MA04-06, issued December 30, 2003, states: “The collection of the NDC
information will allow Medicaid to collect rebates due from drug manufacturers, resulting in
significant cost saving to Idaho’s Medicaid Program.” It also states: “Professional claims for
medications reported with HCPCS … codes for dates of service on or after February 1, 2004
must include the NDC of the medication supplied …. Claims with incomplete NDC information
will be denied ….”




Idaho’s Billing of Manufacturers for Rebates for Physician-Administered Drugs (A-09-12-02079)   13
                                APPENDIX E: STATE AGENCY COMMENTS 





                                                 I 0 A H 0      DEPARTMENT                                        OF 


                                                 HEALTH & WELFARE 

              C.l . •surCH' OTTER - Governor                                                PAU. J. LEARY· Adninistrator
              RICHARO Ll AAMSTRO~>X; - !Xector                                                   DIVISION Of MEDICAIO
                                                                                                     Post Office Box 83720
                                                                                                 Boise, Idaho 83720.0009
                                                                                                  PHONE: (208) 334·5747
                                                                                                      FAX: (203) 364·1811



             March 26, 2014

             Ms. Lori A. Ahlstrand
             Regional Inspector General
             Otlice of Audit Services, Region IX
             Department of Health and Human Services
             90 - 7d' Street, Ste 3-650
             San Francisco, CA 94103

             RE: Report Number A-09-12-02079

             Dear Ms. Ahlstrand:

             In response to the draft findings detailed in Report Number A -09-12-02079, please find the
             Department' s responses below.

             1. 	 OIG Findi ng: The State agency did not bill manufacturers for rebates associated with
                  $2 , 140,760 ($1 ,483, 130 Federal share), we are setting aside this amount tor CMS resolution.
                  The State agency did not bill manufacturers for rebates associated v.~ lh $496,044 ($342,555
                  Federal share), we are setting aside this amount !or CMS resolution.

                 OIG Recommendation : Work with CMS to determine the amount that should be billed to
                 manufacturers tor rebates associated with the S2,636,804 ($1 ,825,685 Federal sha re) in claim
                 lines for physician-administered drugs.

                 S tate R espon se: We concur with the finding and have initiated an action plan to implement
                 the OIG's specific recommendation as follows:

                 The OIG identified claims, detailed below, have been submitted or will be submitted to the
                 rebate processor. T he rebate processor determines which claims are eligible for rebate based
                 on the CMS regulations for the rebate program. The processor then submits the number of
                 units billed for those claims by NOC with the accurate rebate rate for the time period
                 reflected for the adj udication date. The units for each NDC from the identified claims
                 submitted have been added to the corresponding NDC s ummary for the same year and
                 quarter as the identified claim. A prior period adjustment statement was sent to the
                 manufacturer to reflect the increase in units, prescription count, and rebate amount due. The
                 bulk of these claims were received by the rebate processor in June 2013 and included in the
                 quarterly rebate invoice cycle. The State has directed the rebate processor to confirm receipt




Idaho's Billing ofMC01Ujacturersjor Rebates for Physician-Administered Drugs (A-09-12-02079)                                 14
             Ms. Lori A. Ahlstrand
             March 26, 2014
             Page 2


                of all claim numbers identifie d through this audit. Those not yet received will be resubmitted
                through the data warehouse and processed as described above during th e next rebate
                invoicing cycle ending June 30,2014. 'D1e identified claims are addressed as follows:

                • 	 Claims associated with the $2 , 140,760 ($1 ,483, 130 Federal share) excluded by the data
                    warehouse vendor.

                    111(lSe previotL~ly excluded claims were reprocessed and submitted to the rebate processor
                    in .hme of 2013 . Claims found eligibl e for rebate were invoiced and submitted with the
                    2013 second quarter rebate file to CMS in Aug11st 2013.

                • 	 Claims associated with the $496,044 ($342,555 Federal share) amounting to $332,983,
                    identified as no N DC code reported in the N DC field.

                    After reviewing the claims, the ~'tate found that the NDC code was being repotted, but
                    displayed in a different field. At the t ime of the audit the system collected the NDC in a
                    system pham1acy claim table and copi ed it into the memo field, then cleared the claim
                    table. This caused the N DC to display in a field not used for rebates. As of 2013, the
                    claim table information previous ly deleted, ha<; been restored and the table is no longer
                    cleared after copying to the memo field. l l1is allows the NDC to appear in a field used
                    for rebate processing. TI1ese claims wi ll be addressed and w ill be sent to the rebate
                    processor as a part of the scheduled claim ex1ract process from the data warehouse.
                    Claims found eligibl e fo r rebate w ill be invoiced and submitted with the next quarterly
                    CMS rebate file.

                • 	 Claims associated w ith the $496,044 ($342, 555 Federal share) amounting to $ 163,06 1,
                    identified as having invalid HCPCS-N DC combinations.

                    Processes have been redesigned (see Finding No. 4 below) to prevent these en-ors from
                    occurring in the fhture. TI1e State is reviewing these claims and will work with providers
                    and CMS to recoup and/or refund inappropriately paid claims.

             2. 	 OIG Finding: TI1e State agency did not bill for rebates on physician-administered dnags
                  because claim lines were itlcotTectly excluded from the rebate process.

                OIG Reconunendation: Bill manufacturers for rebates associated with the claim lines for
                phys ician-administered drugs that were it1correctly excluded from the rebate process after
                CY 2010.

                State Response: We concur with the fmding and have initiated an action plan to in1plement
                the OIG' s specific reconuneudation as follows:

                TI1e exclusion criteria used by the data warehouse vendor was removed and redcfmed to
                department specifications in April 2013. Previously excluded claims were reprocessed and




Idaho's Billing ofMC01Ujacturersjor Rebates for Physician-Administered Drugs (A-09-12-02079)                      15
             Ms. Lori A. Ahlstrand
             March 26,2014
             Page 3


                sent to the rebate processor in June 2013. Rebate eligible claims were invoiced and submitted
                with the 2013 second quruter rebate file to CMS in August 2013.

             3 . 	 OIG Findin g: The State agency did not ensure that its MMIS captured valid NDCs for all
                   claim lines for physician-admin istered drugs.

                O IG R econmtcnd.at ion: Ensure that the MMIS captures valid NDCs for all claim lines for
                physician-admi nistered drugs.

                State Response: We concur with the finding and have initiated an action plan to implement
                the OIG' s specific recommendation as fol lows:

                TI1e State changed vendors for both claims adjudication and rebate processing during the
                OlG audited period. ·n1e issues noted reflect transitional difficulties and replaced processes.
                Current processes for handling physician administered drug rebates that address the noted
                deficiencies and prevent their reoccmrence are presently in place under the new vendors.

                TI1e cun·ent rebate processor provides monthly NDC/JCode crosswalks of rebateable
                physician administered drugs for use in adjudication by the claims processing vendor. In the
                existing medical claims adj udication system, there are several edits that ensure NDCs are
                captured and appropriately processed. Claims immediately reject if a submitted NDC is
                invalid. Other system edits detennine if an NDC is required for the JCode and will cause the
                clai m to reject if the NDC is missing wh en required, if it is an invalid NDC, and verify that
                the NDC and JCode are associated with each other through the crosswalk provided by the
                rebate processor. If the NDC and JCode are not associated, the claim denies for payment.
                Denied claims are then researched to ensure that rebateable drugs h ave not been omitted on
                the rebate processor crosswalk.

             4. 	 OIG F inding: The rebate contractor d id not receive 4,755 claim lines totaling $496,044
                  ($342,555 Federal share) because NDCs were not present or valid NDCs were not captured.
                  As a result, the rebate contractor did not bill manufacturers for rebates on the State agency's
                  behalf.

                OIG Reconmtendation : Ensure that aU physician-administered drugs eligible for rebates are
                processed for rebates.

                State Response.: We concur with the finding and have initiated an action plan to implement
                the OIG's specitic recommendation as follows:

                A.s explained in the response above, with the change of clainls adjudicator and rebate
                processor in 2010, the claims adjudication process was redesigned to ensure NOCs are
                captured for rebateable drugs. TI1e rebate processor provides a monthly NDC/JCode
                crosswalk of rebateable physician administered drugs for use in adjudication by the claims
                processor. If an NDC is required, the system edits against th is crosswalk to ensure that the




Idaho's Billing ofMC01Ujacturersjor Rebates for Physician-Administered Drugs (A-09-12-02079)                        16
             Ms. Lori A. Ahlstrand
             March 26, 2014
             Page4


                 NDC and the JCode are associated with each other. If not, the claim detail will deny for
                 payment. All paid claims are passed to the data warehouse and subsequently to the rebate
                 processor. Denied claims are researched to ensure that there was not an omission of a
                 rebateable drug on the rebate processor crosswalk.

             lf yo u have any questions regarding the Department's responses to these findings, please contact
             Lisa Hettinger, Ch.iet: Bureau of Financial Operations at (208) 287-1141.

             Sincerely,

             / Paul J. Leary/

             PAULJ. LEARY
             Admin ist.ralor

             PJL/ksl




Idaho's Billing ofMC01Ujacturersjor Rebates for Physician-Administered Drugs (A-09-12-02079)                     17
